Appendix

Case: 19-50787

Document: 00515384425

Page: 1

Date Filed: 04/16/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50787
Summary Calendar

FILED
April 16, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff−Appellee,
versus
JUAN GABRIEL SANCHEZ-HERNANDEZ,
Defendant−Appellant.

Appeal from the United States District Court
for the Western District of Texas
No. 2:19-CR-80-1

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Juan Sanchez-Hernandez appeals the 57-month within-guidelines

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.
*

1a

Case: 19-50787

Document: 00515384425

Page: 2

Date Filed: 04/16/2020

No. 19-50787
sentence and three-year term of supervised release imposed for his conviction
of illegal reentry in violation of 8 U.S.C. § 1326(a) and (b)(1). He contends that
the sentence enhancement provisions of § 1326(b) are unconstitutional violations of due process because they increase the mandatory minimum sentences
based on prior convictions that do not have to be proven to a jury beyond a
reasonable doubt. He concedes that the issue of whether his eligibility for an
enhancement under § 1326(b) must be proved to a jury is foreclosed by
Almendarez-Torres v. United States, 523 U.S. 224 (1998). He seeks only to
preserve the issue for possible Supreme Court review because, he maintains,
subsequent Supreme Court decisions indicate that the Court may reconsider
the issue.
The government moves for summary affirmance or, alternatively, an
extension of time to file its brief. Summary affirmance is appropriate where,
among other instances, “the position of one of the parties is clearly right as a
matter of law so that there can be no substantial question as to the outcome of
the case.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162-63 (5th Cir.
1969). In Almendarez-Torres, 523 U.S. at 239−47, the Court held that for a
statutory sentencing enhancement, a prior conviction is not a fact that must
be alleged in an indictment or found by a jury beyond a reasonable doubt. This
court has held that subsequent Supreme Court decisions did not overrule
Almendarez-Torres. See United States v. Wallace, 759 F.3d 486, 497 (5th Cir.
2014); United States v. Pineda-Arrellano, 492 F.3d 624, 625−26 (5th Cir. 2007).
Thus, Sanchez-Hernandez’s argument is foreclosed.
The motion for summary affirmance is GRANTED, and the judgment is
AFFIRMED. The motion for an extension is DENIED.

2

2a

8 U.S.C. § 1326. Reentry of removed aliens
(a) In general
Subject to subsection (b), any alien who—
(1) has been denied admission, excluded, deported, or removed
or has departed the United States while an order of exclusion, deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the
United States, unless (A) prior to his reembarkation at a
place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying
for admission; or (B) with respect to an alien previously denied admission and removed, unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2
years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection-(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18,
imprisoned not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to
section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission

3a

of the Attorney General, enters the United States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run
concurrently with any other sentence. or
(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the
Attorney General has expressly consented to such alien's
reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or
State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) of this title
who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder of the sentence of imprisonment which was pending
at the time of deportation without any reduction for parole or
supervised release. Such alien shall be subject to such other
penalties relating to the reentry of deported aliens as may be
available under this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not
challenge the validity of the deportation order described in subsection (a)(1) or subsection (b) unless the alien demonstrates
that—
(1) the alien exhausted any administrative remedies that may
have been available to seek relief against the order;

4a

(2) the deportation proceedings at which the order was issued
improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.

5a

